No. 20-1539
______________________________________________________________
IN THE
SUPREME COURT of the UNITED STATES
_________________♦_________________
DANIEL RIVAS-VILLEGAS,
Petitioner,
vs.
RAMON CORTESLUNA,
Respondent.
_________________♦_________________
On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Ninth Circuit
_________________♦_________________
REPLY TO BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI
_________________♦_________________
Timothy T. Coates
Counsel of Record
Nadia Sarkis
GREINES, MARTIN, STEIN & RICHLAND LLP
5900 Wilshire Boulevard, 12th Floor
Los Angeles, California 90036
Telephone: (310) 859-7811
Facsimile: (310) 276-5261
Email: tcoates@gmsr.com
Kevin P. Allen
ALLEN, GLAESSNER, HAZELWOOD &
WERTH, LLP
180 Montgomery Street, Suite 1200
San Francisco, California 94104
Telephone: (415) 697-2000
Facsimile: (415) 813-2045
Email: kallen@aghwlaw.com
Counsel for Petitioner Daniel Rivas-Villegas

i
TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES

ii

INTRODUCTION

1

ARGUMENT

1

I.

II.

REVIEW IS NECESSARY TO CLARIFY AND COMPEL
COMPLIANCE WITH THE EXCESSIVE FORCE
STANDARDS SET BY THIS COURT AS APPLIED TO
CLAIMS ARISING FROM WIDELY ACCEPTED
MEASURES TO PROTECT OFFICER SAFETY WHILE
HANDCUFFING SUSPECTS.

1

THE COURT SHOULD GRANT REVIEW TO COMPEL
COMPLIANCE WITH ITS DECISIONS REQUIRING
COURTS TO GRANT QUALIFIED IMMUNITY WHERE
THE LAW IS NOT CLEARLY ESTABLISHED.

9

CONCLUSION

11

ii
TABLE OF AUTHORITIES
Page(s)
Cases
Abdullahi v. City of Madison,
423 F.3d 763 (7th Cir. 2005)

5

Alicea v. Thomas,
815 F.3d 283 (7th Cir. 2016)

5

Bennett v. Krakowski,
671 F.3d 553 (6th Cir. 2011)

4

Cole v. City of Dearborn,
448 F. App’x 571 (6th Cir. 2011)

4

Couden v. Duffy,
446 F.3d 483 (3d Cir. 2006)

2

Dancy v. McGinley,
843 F.3d 93 (2d Cir. 2016)

2

Graham v. Connor,
490 U.S. 386 (1989)

1

Hall v. District of Columbia,
867 F.3d 138 (D.C. Cir. 2017)

6-7

Harris v. Langley,
647 F. App’x 585 (6th Cir. 2016)

3-4

Herrera v. Bernalillo County Board of County Commissioners,
361 F. App’x 924 (10th Cir. 2010)
Kisela v. Hughes,
___U.S.__, 138 S. Ct. 1148 (2018)

6
9-10

Lachance v. Town of Charlton,
990 F.3d 14 (1st Cir. 2021)

3

LaLonde v. County of Riverside,
204 F.3d 947 (9th Cir. 2000)

9

Laury v. Rodriguez,
659 F. App’x 837 (6th Cir. 2016)

4

iii
TABLE OF AUTHORITIES—Continued
Page(s)
Lombardo v. City of St. Louis,
No. 20-391, __ U.S. __, 2021 WL 2637856 (June 28, 2021)

8

Mullenix v. Luna,
577 U.S. 7 (2015)

9

Perry v. Woodruff County Sheriff Department,
858 F.3d 1141 (8th Cir. 2017)

5

Peterson v. City of Fort Worth, Tex.,
588 F.3d 838 (5th Cir. 2009)

3

Plumhoff v. Rickard,
572 U.S. 765 (2014)

1

Scott v. City of Red Bay,
686 F. App’x 631 (11th Cir. 2017)

6

Scott v. Harris,
550 U.S. 372 (2007)

1

Smith v. Kansas City, Mo. Police Department,
586 F.3d 576 (8th Cir. 2009)

5-6

Smith v. Ray,
781 F.3d 95 (4th Cir. 2015)

3

White v. Pauly,
__ U.S. __, 137 S. Ct. 548 (2017)

9

Ziesmer v. Hagen,
785 F.3d 1233 (8th Cir. 2015)

5

United States Constitution
United States Constitution,
Amendment IV

9

1
INTRODUCTION
We live in a watershed moment in which serious cases of excessive force
such as that of George Floyd command public discourse and redress.

But

shining a light on manifest acts of abuse does not justify abandoning standards
used to measure the propriety of police conduct in the face of tense, uncertain
circumstances, nor, contrary to Graham v. Connor, 490 U.S. 386, 396-97
(1989), countenance transforming “every push or shove” in the course of an
arrest into a federal case. To do so trivializes the federal civil rights statutes
as a means to afford redress in appropriate cases, and worse yet, does so at the
expense of basic practices that ensure officer safety.
_________________♦_________________
ARGUMENT

I.

REVIEW

IS

NECESSARY

TO

CLARIFY

AND

COMPEL

COMPLIANCE WITH THE EXCESSIVE FORCE STANDARDS
SET BY THIS COURT AS APPLIED TO CLAIMS ARISING FROM
WIDELY ACCEPTED MEASURES TO PROTECT OFFICER
SAFETY WHILE HANDCUFFING SUSPECTS.
This Court has recognized that where undisputed video evidence
establishes that the force used was objectively reasonable, an officer is entitled
to summary judgment.

Plumhoff v. Rickard, 572 U.S. 765, 776-77 (2014);

Scott v. Harris, 550 U.S. 372, 386 (2007). While respondent asserts that a jury
could somehow draw inferences in support of an excessive force claim here
(Brief In Opposition (“BIO”) 37-38), this contention is flatly contradicted by
what the video actually depicts—petitioner’s placement of his knee against
respondent’s back for approximately eight seconds during handcuffing—and

2
unsupported by any actual physical evidence indicating that the force was
excessive.
As a result, what respondent ultimately contends, and what the panel
opinion ultimately holds, is that a plaintiff may assert a potential excessive
force claim virtually any time an officer touches a suspect while handcuffing,
based solely on the plaintiff’s subjective, after-the-fact statement that he
suffered injury as a result of the officer’s actions.
Thus, respondent argues that there is “clearly established law in every
circuit court supporting the proposition that ‘an officer cannot place his knee
on the back of a prone, unresisting suspect.’” (BIO 18.) Yet, review of the cited
cases belies respondent’s argument.
Dancy v. McGinley, 843 F.3d 93 (2d Cir. 2016), did not involve alleged
excessive force based solely on placement of an officer’s knee against the
suspect’s back. One plaintiff contended he suffered a broken jaw after the
defendant police officer bent him over the hood of an automobile and caused
his “face [to] slam into the car.”

Id. at 103.

The other plaintiff claimed

excessive force based not upon placement of a knee on his back during arrest,
but premised on the plaintiff being wrongfully arrested having committed no
crime, slammed against the ground and then beaten by several officers. Id. at
102.
In Couden v. Duffy, 446 F.3d 483 (3d Cir. 2006), the court found that if
plaintiff’s version of events was credited, there were no grounds for multiple
officers to use force at all, and that “[t]he participation of so many officers and
the use of mace, several guns pointed at Adam’s head, and handcuffs
constituted excessive force against a cooperative and unarmed subject.” Id. at
497.

3
Similarly, in Smith v. Ray, 781 F.3d 95 (4th Cir. 2015), the court found
an officer could be liable for excessive force where there was no indication
plaintiff was armed and she was cooperative, but the officer nonetheless
“threw her to the ground” then “jumped on her, jamming his full weight into
her back with his knee, and painfully twisting her right arm behind her back.”
Id. at 98.
In Lachance v. Town of Charlton, 990 F.3d 14 (1st Cir. 2021), officers
responded to a 911 call, found plaintiff in mental distress and in the course of
subduing him pushed him into a recliner which tipped over, and then placed
him on the floor, applying knee pressure to his back. Plaintiff sustained a
fractured back, and in affirming the denial of summary judgment on qualified
immunity that court observed that based on the medical evidence there was a
triable issue of fact whether the back injury was caused by the fall, or by
pressing a knee into the plaintiff’s back with such force that it caused bruising.
Id. at 29-30. No such evidence exists here.
Peterson v. City of Fort Worth, Tex., 588 F.3d 838 (5th Cir. 2009), did not
involve an excessive force claim based on placing a knee against a suspect’s
back during handcuffing. Plaintiff claimed he was pinned upright against a
truck, and that an officer used several “knee strikes” against him even though
he did not resist and that an officer placed a knee on his neck and ground his
face into the earth. Id. at 846.
Nor does the unpublished Sixth Circuit decision, Harris v. Langley, 647
F. App’x 585 (6th Cir. 2016) support respondent. There officers responded to a
request for a welfare check at plaintiff’s residence, and without provocation an
officer “body-slammed” the plaintiff, “knocked him to the floor” then placed his
knee on plaintiff’s back, grabbed his wrist and handcuffed him. Id. at 587.

4
The Sixth Circuit noted that if plaintiff’s evidence was given due weight:
“There was no need for any force in this situation because no crime was being
committed and there was no immediate threat to the safety of anyone; yet,
when Harris decided to close the door to his own home, Officer Pendleton
suddenly attacked him without warning. This unprovoked violence cannot be
excused as the consequence of a ‘split-second judgment.’ The facts, as alleged,
portray a patently unreasonable use of force.” Id. at 590.
Laury v. Rodriguez, 659 F. App’x 837 (6th Cir. 2016), is also inapposite.
The case did not involve brief use of a knee against the back during
handcuffing, but prolonged use of a knee against the plaintiff’s back with the
officer’s full body weight—even after the plaintiff was handcuffed. Id. at 845
(“And even if it were reasonable for Price to use his body weight to keep Laury
down until he was handcuffed, the video shows Price kneeling on Laury’s back
after Laury was handcuffed and was not resisting”).
Cole v. City of Dearborn, 448 F. App’x 571 (6th Cir. 2011), is similarly
far afield. There, the court did not hold that placing a knee against the back of
a suspect for several seconds while handcuffing them could constitute
excessive force. Rather the court held that “stomping on” a compliant suspect’s
back, “stepping on his neck,” and “driving a knee into [his] back” would “come
within the protective reach of the Fourth Amendment.” Id. at 575.
Bennett v. Krakowski, 671 F.3d 553 (6th Cir. 2011), is nothing like this
case. There the court dismissed the officers’ appeal from denial of their motion
for summary judgment because there were disputed issues of fact as to what
transpired. Id. at 559-60. According to plaintiff he immediately lay on the
ground when confronted by officers only to have them, without provocation,
kneel on his back, beat and then taser him. Id. at 557-58.

5
Alicea v. Thomas, 815 F.3d 283 (7th Cir. 2016), did not involve a
contention that placing a knee against a suspect’s back during handcuffing
constituted excessive force.

As relevant, the plaintiff, a burglary suspect,

asserted that one officer improperly deployed a canine to bite him, though he
offered no resistance, and another officer improperly struck him while he was
still being bitten by the canine. Id. at 290 (“At the point at which Alvarez first
saw Alicea, Alicea’s arm was in the jaws of a seventy-two pound dog. Two
other officers were already at the scene. A reasonable officer would not think
that punching, kicking, and stomping on [the plaintiff] was required to control
the situation”).
In Abdullahi v. City of Madison, 423 F.3d 763 (7th Cir. 2005), a suspect
died within two minutes after an officer pressed his knee against the suspect’s
shoulder for 30 to 45 seconds (id. at 765-66) “with chest-crushing force, and the
undisputed medical evidence reveals that decedent died of injuries consistent
with a crushing or squashing type trauma” (id. at 771). No such knee pressure
of similar duration or force is even remotely at issue here.
In Perry v. Woodruff County Sheriff Department, 858 F.3d 1141, 1144-45
(8th Cir. 2017), the court affirmed the district court’s determination that the
officers had committed excessive force when they threw an unarmed, fully
compliant suspect to the ground to handcuff him.

Similarly, in finding

qualified immunity inappropriate in Ziesmer v. Hagen, 785 F.3d 1233 (8th Cir.
2015), the court noted that plaintiff asserted he offered no resistance to being
taken into custody, but that the officer “tackled him to the ground and dug his
knee into his back, while pulling [his] hands behind his back, causing his
shoulder to pop out of its socket.” Id. at 1236. The same is true in Smith v.
Kansas City, Mo. Police Department, 586 F.3d 576, 579, 581-82 (8th Cir. 2009),

6
where the court affirmed the denial of qualified immunity to officers where
plaintiff testified he had committed no crime and offered no resistance but was
pulled from his doorway by defendants who then “shoved [his] face into the
concrete and placed their knees on his back as they handcuffed him.” Id. at
579. No comparable degree of force is at issue here.
Herrera v. Bernalillo County Board of County Commissioners, 361
F. App’x 924, 926-27 (10th Cir. 2010) is yet another dissimilar case involving
use of force inflicting serious injury—torn ligaments and a torn meniscus—on
a fully compliant suspect. Id. at 926 (“It is undisputed that [plaintiff] promptly
complied with the deputies’ order, lying face down on the ground with his
hands out. At this point, [the officers] approached [plaintiff] and all three
jumped on him. One deputy drove his knee into [his] back. A second deputy
drove his knee into the back of [plaintiff’s] left knee. The third deputy grabbed
[plaintiff’s] left leg and twisted it by the ankle”).
That is also true of Scott v. City of Red Bay, 686 F. App’x 631 (11th Cir.
2017), where the court denied qualified immunity where an officer used force
against an unarmed, fully compliant suspect. Id. at 633 (“Assuming, as we
must, that James was not resisting arrest for a minor offense, the acts of
shoving him to the ground, kneeling on his back, pressing his face into the
ground, and ignoring his assertions that he could not produce his arm for
handcuffing and could not breathe were excessive”).
Hall v. District of Columbia, 867 F.3d 138 (D.C. Cir. 2017) is yet another
case involving dissimilar facts. The officer was summoned to investigate a
claim that plaintiff had left a restaurant without paying for her party, even
though she had merely gone across the street to greet friends and had left her
purse, phone and credit card—which the restaurant had charged—at the

7
restaurant. Id. at 144-45, 154. The court found that the officer could be liable
for battery based on grabbing plaintiff, slamming her against a wall, then
taking her outside, shoving her to her knees on the pavement, and swinging
her around while placing a knee in her back and pulling her arms back,
resulting in severe injury. Id. at 158-60.
Thus, respondent’s assertion that these cases are “directly on point,
[and] limited to brief and mild to moderate application of knee to back prior to
or during handcuffing” (BIO 22 (emphasis added)) does not withstand scrutiny.
None of the cases suggests that a brief placement of a knee against a suspect’s
back during handcuffing as a precaution against renewed resistance,
especially coupled with the absence of any evidence that an officer could have
contemporaneously perceived as indicating the infliction of any injury, could
constitute excessive force.
Respondent tacitly concedes the point, asserting, based on pure
speculation that “[t]here are relatively few mild to moderate ‘knee on back’ use
of force cases given that the subject of such a use of force is often unable to
identify which law enforcement officer applied pressure to his or her back.”
(BIO 21.) But in fact the majority of circuits have expressly rejected such
excessive force claims. (Pet. 21-23.)
Under respondent’s (and the panel majority’s) view, any precautionary
placement of a knee against a suspect’s back in the course of handcuffing can
give rise to an excessive force claim so long as the plaintiff subsequently
asserts it was “too much,” even in the absence of any medical evidence, or
indeed physical evidence, linking the force to any actual injury. As the panel
dissent notes, the result is an open ended invitation to litigation that will

8
necessarily deter officers from taking a widespread and rudimentary measure
to ensure officer safety in the course of handcuffing suspects. 1/
Respondent contends that no proof of physical injury is required for a
constitutional claim. (BIO 27.) But that is a strawman argument that ignores
the point actually made in the petition and uniformly adopted by federal
appellate courts—that it is incumbent on a plaintiff in an excessive force claim
to show that the force was in fact excessive, beyond his or her own subjective
opinion on the matter. There must be objective evidence establishing that the
degree of force was excessive. (Pet. 24-25.) Respondent simply ignores what
cited cases actually hold, but turning a blind eye to this authority does not
make it disappear.
Indeed, in Lombardo v. City of St. Louis, No. 20-391, __ U.S. __, 2021
WL 2637856, *2 (June 28, 2021), the Court underscored that evidence as to the
intensity of force used was essential in evaluating the extent of force used in
the excessive force context. See also id. at *5 (Alito, J., dissenting) (noting
medical evidence indicating “officers’ use of force inflicted serious injuries”).
The view espoused by respondent and the panel majority cannot be
reconciled with the decisions of this Court concerning the reasonable use of
force, nor the decisions of other circuits recognizing that the de minimis
application of force here—placement of a knee against a suspect’s back during
handcuffing—is reasonable as a matter of law. The petition should be granted.

1/As

noted in the petition, and as the panel dissent emphasized, the precautionary
nature of the knee placement was particularly manifest here, given that respondent, who was
not yet handcuffed, might still have reached into the baggy pocket of his pajama pants and
pulled the knife out by its handle. (Pet. 8-9 (citing Pet. App. 32).)

9

II.

THE

COURT

SHOULD

GRANT

REVIEW

TO

COMPEL

COMPLIANCE WITH ITS DECISIONS REQUIRING COURTS TO
GRANT QUALIFIED IMMUNITY WHERE THE LAW IS NOT
CLEARLY ESTABLISHED.
An officer is entitled to qualified immunity when his or her conduct
“‘does not violate clearly established statutory or constitutional rights of which
a reasonable person would have known.’” Mullenix v. Luna, 577 U.S. 7, 11
(2015) (per curiam). Immunity protects “‘all but the plainly incompetent or
those who knowingly violate the law.’” Id. at 12.
In the Fourth Amendment context the Court has made it clear that the
requirement of clearly established law to put an officer on notice that their
conduct might be subject to liability is particularly exacting. Other than in an
obvious case, “officers are entitled to qualified immunity unless existing
precedent ‘squarely governs’ the specific facts at issue.”

Kisela v. Hughes

___U.S.__, 138 S. Ct. 1148, 1153 (2018) (citing Mullenix, 577 U.S. at 13); White
v. Pauly, __ U.S. __, 137 S. Ct. 548, 551 (2017).
Respondent, echoing the panel majority, cites LaLonde v. County of
Riverside, 204 F.3d 947 (9th Cir. 2000) as rendering the law clearly established
with respect to the situation confronted by petitioner. But as noted in the
petition, LaLonde is nothing like this case.
In LaLonde, the officers merely responded to a neighbor’s complaint
that LaLonde was making too much noise in his apartment (204 F.3d at 95051), whereas petitioner and the other officers responded to an alleged incident
of domestic violence that, according to the police dispatch he heard, reportedly
included the suspect’s use of a chainsaw to break something in the house.
LaLonde was also unarmed, holding only a sandwich (204 F.3d at 951), while

10
plaintiff was carrying a pick tool when he first approached the officers and,
after putting that down, he still had a long knife protruding from his left
pocket—the side where Rivas-Villegas placed his knee. Plainly, there “is a
very significant difference between using a knee to hold down a person who is
suspected of a serious violent crime who is armed with a knife (as in this case)
and using a knee to hold down a noisy neighbor armed with nothing more than
a sandwich.” (Pet. App. 39 (Collins, J., dissenting).)
Respondent flatly ignores these differences, instead relying on a
purported general proposition that officers cannot place a knee against the
back of a suspect once a situation has purportedly de-escalated. (BIO 31-32.)
Yet, this is the sort of generalized statement of the law, divorced from specific
facts that inform the excessive force inquiry that this Court has repeatedly
rejected. (See Pet. at 28-31.)
Respondent was required to identify “existing precedent [that] ‘squarely
governs’ the specific facts at issue.” Kisela, 138 S. Ct. at 1153. He failed to do
so. As a result, under the controlling decisions of this Court, the Ninth Circuit
was required to grant petitioner qualified immunity. It is again necessary for
this Court to grant review to compel the Ninth Circuit to adhere to this Court’s
precedent concerning qualified immunity.
_________________♦_________________

11
CONCLUSION
For the foregoing reasons, petitioner respectfully submits that the
petition for writ of certiorari should be granted.
Respectfully submitted,
Timothy T. Coates
Counsel of Record
Nadia Sarkis
GREINES, MARTIN, STEIN & RICHLAND LLP
5900 Wilshire Boulevard, 12th Floor
Los Angeles, California 90036
Telephone: (310) 859-7811
Facsimile: (310) 276-5261
Email: tcoates@gmsr.com
Kevin P. Allen
ALLEN, GLAESSNER, HAZELWOOD &
WERTH, LLP
180 Montgomery Street, Suite 1200
San Francisco, California 94104
Telephone: (415) 697-2000
Facsimile: (415) 813-2045
Email: kallen@aghwlaw.com
Counsel for Petitioner Daniel Rivas-Villegas

